     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION




   Actions Needed to Improve the Reliability of Afghan
              Security Force Assessments




                                     June 29, 2010



SIGAR Audit-10-11 Security/ANSF Capabilty Ratings
     OFFICE OF THE SPECIAL INSPECTOR GENERAL FOR AFGHANISTAN RECONSTRUCTION


June 29, 2010

The Honorable Robert Gates
Secretary of Defense

Commander, U.S. Central Command

Commander, U.S. Forces-Afghanistan, and
 Commander, International Security Assistance Force

Lieutenant General David M. Rodriguez
Commander, International Security Assistance Force
 Joint Command

Lieutenant General William B. Caldwell, IV
Commander, NATO Training Mission-Afghanistan, and
 Commander, Combined Security Transition Command-Afghanistan

This report discusses the results of a performance audit of the assessment system used to evaluate the
capabilities of the Afghanistan National Security Forces (ANSF). It includes ten recommendations for
ISAF Joint Command (IJC) and three for NATO Training Mission-Afghanistan/Combined Security
Transition Command-Afghanistan (NTM-A/CSTC-A) intended to improve the reliability of future ANSF
assessments and to support U.S. and international efforts to develop ANSF capabilities.

A summary of this report is on page ii. This performance audit was conducted by the Office of the
Special Inspector General for Afghanistan Reconstruction under the authority of Public Law No. 110-181
and the Inspector General Act of 1978, as amended. When preparing the final report, we considered
comments from IJC, NTM-A/CSTC-A, and the Office of the Secretary of Defense (OSD). Copies of these
comments are included in appendices II, III, IV, and V of this report.




John Brummet
Assistant Inspector General for Audits
Office of the Special Inspector General
   for Afghanistan Reconstruction


SIGAR Audit-10-11 Security/ANSF Capability Ratings                                               Page i
               SIGAR
                                                                      SIGAR Audit-10-11                               June 2010

                                                                     Actions Needed to Improve the
                                                                     Reliability of Afghan Security Force
Special Inspector General for Afghanistan Reconstruction             Assessments
What SIGAR Reviewed
The development of self-sufficient Afghan National Security Forces (ANSF) capable of independently providing
internal and external security for Afghanistan is a key goal of the U.S. strategy for Afghanistan. For the last 5 years,
the Capability Milestone (CM) rating system has been the primary metric for measuring the development of ANSF
capabilities against end-state goals. In late 2009, responsibility for the management of ANSF capability
assessments moved from NTM-A/CSTC-A to IJC. This review—the first independent evaluation of the CM rating
system since its creation in 2005—assesses (1) the reliability of the Capability Milestone rating system; (2)
summary reports provided to decision-makers; (3) challenges to U.S. and Coalition assessment efforts; and (4)
systemic ANSF deficiencies that have undermined efforts to develop unit-level capabilities. To accomplish these
objectives, we conducted interviews with responsible U.S., Coalition, and Afghan officials; reviewed ANSF
assessment documents from IJC and NTM-A/CSTC-A; and visited 18 Afghan army and police units. We conducted
our work in Washington, D.C., and Afghanistan from October 2009 to May 2010 in accordance with generally
accepted government auditing standards.

What SIGAR Found
As the United States and international community aim to transfer security responsibility to Afghan security forces,
having a reliable system for monitoring progress toward that objective is critical. The CM rating system has not
provided reliable or consistent assessments of ANSF capabilities. For example:
        Measurements used in the assessment system have overstated operational capabilities.
        Top-rated ANSF units have not indicated a capability to sustain independent operations.
        The CM rating system has inadvertently created disincentives for ANSF development.
        ANSF capability reports have included outdated assessment data.

In addition to these weaknesses, serious challenges affect U.S. and Coalition assessment efforts, including security
conditions, mentor shortages, and inadequate training. Further, systemic ANSF deficiencies have undermined
efforts to develop unit capabilities. These include logistics problems, personnel attrition, inadequate personnel
authorizations, infrastructure deficiencies, corruption, drug abuse, and illiteracy. In late April 2010, IJC replaced the
CM rating system with a new unit-level assessment called the Commander’s Unit Assessment Tool (CUAT). SIGAR
has not yet assessed the CUAT system; however, the principles and recommendations in this report remain
relevant to whatever system is in place for evaluating the operational effectiveness of fielded ANSF units.

What SIGAR Recommends
To improve the reliability of ANSF capability assessments, SIGAR is making ten recommendations to IJC to improve
the measurement, validation, and reporting of assessment results; to increase visibility into Afghan police
capabilities; and to counteract perverse incentives that have accompanied the use of ANSF assessment systems.
SIGAR is also making three recommendations to NTM-A/CSTC-A to improve compliance with ministerial logistics
systems, help offset the effects of personnel attrition, and improve operational effectiveness by extending driver
training.

IJC concurred or partially concurred with all ten recommendations. NTM-A/CSTC-A concurred with all three
recommendations.
                    For more information contact: SIGAR Public affairs at (703) 602-8742 or PublicAffairs@sigar.mil

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                                       Page ii
TABLE OF CONTENTS


Background                                                                                         2

Capability Milestone Ratings Have Not Provided Reliable Assessments of ANSF Effectiveness          5

Summary Reports Included Outdated Data and Overstated ANSF Capabilities                           12

U.S. And Coalition Assessment Efforts Have Faced Challenges                                       15

Systemic ANSF Deficiencies Have Undermined Efforts to Develop Unit Capabilities                   17

Conclusions                                                                                       21

Recommendations                                                                                   21

Comments                                                                                          23

Appendix I: Scope and Methodology                                                                 24

Appendix II: Comments from ISAF Joint Command                                                     26

Appendix III: Comments from NATO Training Mission-Afghanistan/Combined Security Transition
Command-Afghanistan                                                                               32

Appendix IV: Comments from the Office of the Secretary of Defense (Policy)                        44

Appendix V: Comments from the Office of the Secretary of Defense (Personnel & Readiness)          46



Tables and Figures
Table 1: IJC’s Afghan Army CM Ratings as of March 29, 2010                                        2
Table 2: IJC’s Afghan Police CM Ratings as of March 29, 2010                                      2
Table 3: Varying Definitions for CM1                                                              10
Table 4: Missing Police Assessments, September 2009 to February 2010                              12
Figure 1: CM Assessment Procedures, as of March 2010                                               4




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                           Page iii
ACRONYMS

ADAB                 ANSF Development Assistance Bureau
ANA                  Afghanistan National Army
ANCOP                Afghanistan National Civil Order Police
ANP                  Afghanistan National Police
ANSF                 Afghanistan National Security Forces
AUP                  Afghanistan Uniform Police
AWOL                 Absent Without Leave
CE                   Capability Endorsement
CUAT                 Commander’s Unit Assessment Tool
DOD                  Department of Defense
FPDD                 Focused Police District Development
FRAGO                Fragmentary Order
IDR                  In-District Reform
IJC                  ISAF Joint Command
ISAF                 International Security Assistance Force
MOD                  Ministry of Defense
MOI                  Ministry of Interior
NATO                 North Atlantic Treaty Organization
NTM-A/CSTC-A         NATO Training Mission-Afghanistan/Combined Security Transition
                      Command- Afghanistan
OSD                  Office of the Secretary of Defense
RC                   Regional Command
SIGAR                Special Inspector General for Afghanistan Reconstruction
INL                  International Narcotics and Law Enforcement
TRAT                 Training Readiness Assessment Tool
VTT                  Validation Transition Team




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                    Page iv
Actions Needed to Improve the Reliability of Afghan Security Force Assessments

The development of self-sufficient Afghan National Security Forces (ANSF) capable of independently
providing internal and external security for Afghanistan is a key goal of the U.S. strategy for Afghanistan.
In the long term, a reliable system for monitoring progress toward that objective is critical, as the United
States and international community aim to transfer security responsibility to Afghan security forces. In
the short term, the development of ANSF capabilities is essential to the U.S. and Coalition
counterinsurgency strategy, which calls for securing key population areas and relies on bolstering the
Afghan people’s confidence in their government. For 5 years, the Capability Milestone (CM) rating
system has been the primary system for measuring the development of ANSF capabilities against end-
state goals. In late 2009, responsibility for the management of ANSF capability assessments moved from
NTM-A/CSTC-A to IJC. The Department of Defense (DOD) has regularly reported CM rating summaries
for the Afghan army and police to the President of the United States and Congress.

This report assesses (1) the reliability of the CM rating system, (2) summary reports provided to
decision-makers, (3) challenges to U.S. and Coalition ANSF assessment efforts, and (4) systemic ANSF
deficiencies that have undermined efforts to develop unit-level capabilities.

To accomplish these objectives, we conducted interviews with responsible U.S., Coalition, and Afghan
officials; reviewed ANSF assessment documents from ISAF Joint Command (IJC) and NATO Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A); and visited
18 Afghan army and police units located in Regional Commands Capital, North, and East, where we
interviewed mentors, partners, and Afghan officials. We conducted our work in Washington, D.C., and
Afghanistan from October 2009 to May 2010 in accordance with generally accepted government
auditing standards. A discussion of our scope and methodology is included in appendix I.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                  Page 1
BACKGROUND

The U.S. strategy in Afghanistan depends on building that country’s capacity to provide for its own
security by training and equipping the Afghan National Army (ANA) and Afghan National Police (ANP),
collectively referred to as the Afghan National Security Forces (ANSF). Since 2002, the United States has
provided over $27 billion—over half of all reconstruction dollars—for ANSF training, equipping, and
sustainment. Current ANSF force-generation goals, which were agreed to by the Afghan Government
and the international community, call for 171,600 ANA and 134,000 ANP by October 2011.

Starting in 2005, the United States used the CM rating system to monitor and report on progress in
developing fielded Afghan security forces, which consist of the Afghanistan National Army and
Afghanistan National Police. The CM assessment system grades Afghan army and police unit capabilities
on a 4-point scale in which a score of 1 is awarded to the most capable units and 4 to the least.1 CM
rating definitions generally designate CM1 units as capable of conducting their primary mission with
limited Coalition support. That definition aligns with U.S. and international strategic goals; and in official
statements, DOD and ISAF have said that, at the CM1 level, an Afghan army or police unit is expected to
be capable of “independent operations.”

As of March 29, 2010, IJC reported CM ratings for 150 Afghan army and 130 Afghan police units. As
shown in Table 1 and 2, approximately 23 percent of those army units and 12 percent of police units
received the highest rating, CM1.

Table 1: IJC’s Afghan Army CM Ratings as of March 29, 2010
                                 CM1             CM 2         CM 3         CM 4      Total
    ANA Units                         34           53           48           15        150
    Percentage of                23%             35%          32%          10%       100%
    Total
Source: SIGAR analysis of IJC data.

Table 2: IJC’s Afghan Police CM Ratings as of March 29, 2010
                                       CM1          CM 2         CM 3       CM 4     Total
    ANP Units                               15           38           52      25       130
    Percentage of Total                    12%          29%          40%     19%
Source: SIGAR analysis of IJC data.

Assessment methods for evaluating army and police units have differed. U.S. and Coalition military
mentors and partners working with ANSF units have had responsibility for performing monthly CM
rating assessments at the army kandak (battalion) level and the police district or precinct level.2
Mentors guide and advise ANSF units. Partners do the same, but also share an area of responsibility



1
  The CM system has also been used by NTM-A/CSTC-A to rate the capacity of the Ministries of Defense and
Interior; however, this report focuses exclusively on the assessment of fielded forces.
2
As of April 2010, IJC moved to a 6-week assessment cycle.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                         Page 2
with their assigned ANSF units, frequently co-locating and jointly training, planning, and executing
operations.3

Under the CM rating system, police mentors and partners use a structured evaluation form called the
Capability Endorsement (CE) checklist. CM ratings for Afghan police units depended on assessment of
the following factors:
      personnel (including payroll and personnel systems),
      equipping (including maintenance, supply and property accountability systems),
      facilities,
      training, and
      proficiencies in security sector functions (including command and control, intelligence, and force
         protection).

By contrast, army mentors and partners conducted CM assessments using a less structured, more
subjective approach submitted in various formats. CM ratings for Afghan army units were based on
assessments of the following factors:
     personnel,
     command and control,
     training,
     sustainment,
     equipment on-hand,
     equipment readiness, and
     an overall assessment measure.

For both police and army units, after monthly assessment reports were completed at the unit level, they
were gathered at the regional command level; results were then passed up to the ISAF Joint Command
(IJC).4 At IJC, the ANSF Development Assistance Bureau (ADAB) had responsibility for performing quality
control checks and for aggregating assessment data into a comprehensive briefing called the Transition
Readiness Assessment Tool (TRAT). The TRAT included a final summary of CM results for each
assessment cycle. (See figure 1 for CM assessment procedures.)

During the course of our review, changes were made to reshape the ANSF development program,
including a realignment of ISAF’s command and control structure. To achieve greater unity of command
and improve operational effectiveness, General McChrystal, Commander of ISAF, established IJC in
October 2009 and NTM-A in November 2009. IJC achieved full operational capability in November 2009,
while NTM-A did the same in February 2010. As of April 2010, DOD reported that IJC Headquarters was
manned at 82.5 percent and NTM-A/CSTC-A at 52 percent.




3
    Mentoring and partnering typically occurs after training, once Afghan army and police units have been fielded.
4
 The CM rating system was designed to be used at the army kandak (battalion) or police district/precinct level. For
example, CM assessments of the abilities of army brigades or corps to operate effectively as a whole were not
performed.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                           Page 3
Figure 1: CM Assessment Procedures, as of March 2010




Source: SIGAR analysis of IJC and NTM-A/CSTC-A information.



In late March 2010, IJC told us that plans were underway to replace the CM rating system completely.
Since its creation in late 2009, IJC has had responsibility for the management of U.S. and Coalition
mentors and partners for fielded ANSF forces, including the assessment of ANSF capabilities. As part of
that responsibility, IJC introduced a new process by which Regional Commands report on governance,
development, and security for priority areas of Afghanistan. As of February 2010, the new process still
used CM rating results for measurements of unit-level ANSF capabilities. In late April 2010, IJC ordered
the use of a new unit-level assessment system intended to replace the CM rating system called the
Commander’s Unit Assessment Tool (CUAT).




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                 Page 4
CAPABILITY MILESTONE RATINGS HAVE NOT PROVIDED RELIABLE ASSESSMENTS OF ANSF
EFFECTIVENESS

CM ratings have not provided consistent and reliable measures of progress toward the goal of
developing self-sustaining security forces for Afghanistan. Methods of measurement and validation
used to generate ANSF capability ratings contributed to a lack of equivalence in CM rating results, in
some cases obscuring accurate measures of operational effectiveness.

The CM Rating System Has Yielded Inconsistent Measures of ANSF Capabilities and Has
Created Disincentives for ANSF Improvement
The inability of top-rated units to sustain their capabilities over time calls into question the effectiveness
of the CM rating system as a reliable measure of ANSF development progress. Furthermore, the CM
rating system created unintended disincentives for ANSF units to attain top-rated capabilities. Finally,
similarly rated ANSF units have not always manifested similar capabilities.

Top CM Ratings May Not Indicate the Capability to Maintain Self-Sustaining Operations

Although the United States and ISAF have stated that the attainment of “self-sustaining operations” is a
goal for ANSF development, units obtaining the top rating in the CM system, CM1, may not have the
capacity to sustain the gains they have made. Our analysis of CM-rating histories showed significant
levels of regression, or backsliding, in the capability levels of fielded army and police units. We
evaluated monthly ANSF CM ratings for a 12 month period (February 2009 through January 2010) and
found that 38 percent of army units (52 of 137 units) and 66 percent of police districts (67 of 101
districts) had regressed at least one level during that period. When we considered only those units that
had received the top rating, CM1, we found that 39 percent of top-rated army units (20 of 51 kandaks)
and 71 percent of top-rated police districts (22 of 31) had regressed at least one CM rating level. Of
those units that lost their CM1 status, 11 army units (55 percent) and 4 police units (18 percent) had
regained their CM1 status by the January 2010 rating cycle.

Police units, in particular, have had difficulty sustaining top-level capabilities. Officials from IJC, NTM-
A/CSTC-A, State’s Bureau of International Narcotics and Law Enforcement Affairs, and DynCorp
expressed concern about this trend, stating that CM1-rated police units require significant post-CM1
mentoring to sustain training results and stave off regression. Mentors and partners at police districts
we visited reported similar concerns. For example, in February 2010, a Regional Command (RC) North
mentor team, responding to written questions we provided, stated, “The ANP will simply stop doing
what we asked them to do as soon as we leave the area. This is especially troublesome in areas of
security and patrolling.” Police mentor and partner team assessment reports corroborated these
concerns. For example, an October 2009 assessment report describing a CM1-rated police unit in Orgun,
Paktika Province, stated that “The District has well trained ANP soldiers but this training needs constant
reinforcement.”

Police districts have experienced regressions in their assessed capabilities, due to several factors,
including attrition of personnel, reassignments, and a lack of sustained mentoring and partnering.
       Attrition: Heavy personnel losses have been a primary cause of capability regression in police
        units. Mentors, partners, and IJC officials stated that training has not been systematically

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                      Page 5
        provided to new recruits brought in to replenish units, causing a gradual loss of trained
        personnel.
       Reassignments: Police mentors, partners, and Afghan commanders stated and assessment
        reports confirmed that reassignments of police personnel—often to provincial police
        headquarters—were commonplace and a significant factor in reducing police units’
        effectiveness.
       Lack of sustained mentoring/partnering: A lack of sustained mentoring/partnering—a critical
        element in supporting the development of police units—has contributed to the regression of
        some units. IJC and NTM-A/CSTC-A officials we spoke to cited NATO restrictions on mentors,
        mentor shortages, and conflicting battle space priorities as having contributed to this pattern.

The CM rating system itself has created disincentives for ANSF units to make progress toward a CM1
rating and, thereafter, to become independent of Coalition support. Mentor/partner support for ANA
units at the top rating level has been minimized to re-prioritize support for lower-rated units; in the case
of ANP units, it is withdrawn entirely. Not surprisingly, ANSF units dislike the prospect of losing U.S. and
Coalition mentors and partners who bring with them force protection, expertise, supplies, funding, and
prestige. According to ANSF mentors and partners and IJC officials, the potential loss of U.S. and
Coalition support has been a direct disincentive to improvement on the part of Afghan units. In addition,
IJC’s Validation Transition Team (VTT), which provides independent validation of CM1 capabilities for the
Afghan army, warned against decreasing the size of mentor teams immediately following validation. The
team reported that CM1 units generally had residual deficiencies that a reduced mentor team was not
equipped to address, and that Afghan army units feared that attaining a CM1 rating would mean “you’re
on your own.” For police units, full withdrawal of all mentors/partners has been programmatically
intended, once a unit has held a CM1 rating through a period of monitoring. As of March 2010, only one
police district—Baghlan-e Jadid in Baghlan Province—had graduated to that stage, with unfortunate
results (see “Overstated Police Capabilities: The Case of Baghlan-e Jadid,” page 13). In February 2010,
IJC Assessments officials stated that they recognized the CM system had inadvertently provided
disincentives to development.

ANSF Units with the Same CM Ratings May Not Have Equivalent Capabilities
CM ratings for ANSF units have provided relative, not absolute, measures of unit-level capabilities.
Based on interviews, observations, and reviews of assessment reports, we found that relative
differences in units receiving different CM ratings were readily apparent. Specifically, units rated CM1
were generally more capable than those rated CM2, and so forth. However, we also found that similarly-
rated units in different regions were not always comparable so that one could not assume that units
with similar ratings would have similar capabilities. In particular, Afghan army units receiving similar
ratings in different parts of the country exhibited disparities in actual capability. Variations were
pronounced between army units being partnered compared with those mentored. We observed that
the more intensive nature of partnering resulted in increased developmental benefits to Afghan units.
Additionally, planning and executing joint operations through partnering allowed U.S. and Coalition
forces to assess firsthand the effectiveness of Afghan army units during operations. Mentoring, by
contrast, resulted in a different type of exposure, and NATO mentors were often restricted in their




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                  Page 6
development and assessment activities due to national caveats and guidelines that limited the scope of
their activities.5

The Measurement and Validation of ANSF Capabilities May Have Resulted in Overstatement
and Variability in Assessment Results
Measures used to determine CM ratings resulted in overstated operational capabilities and a lack of
consistency in assessment results. Inconsistencies resulted from an emphasis on quantitative measures,
biases in personnel inputs, variable rating definitions, weaknesses in assessment tools, and a lack of
independent validation of police capabilities.

Emphasis on Quantitative Measures Has Sometimes Obscured the Assessment of Operational
Effectiveness

CM assessments were biased by a dependence on quantitative inputs that in some cases obscured
reliable assessments of operational effectiveness. Quantitative measures of readiness—such as levels of
manning and equipping—can provide important gauges of progress toward force generation goals.
However, CM ratings depended more heavily on the measurement of supplies and personnel available
to a unit than on subjective evaluations of the unit’s ability to perform its mission effectively.6 As a
result, CM ratings did not consistently provide reliable assessments of ANSF readiness. For example, our
discussions with army and police mentors and partners revealed that in some fully supplied units poor
leadership, corruption, and other factors had significantly diminished operational effectiveness.
Conversely, some units lacking all authorized supplies demonstrated successful operational abilities.

Police CM ratings were based on results from a structured questionnaire, called the Capability
Endorsement (CE) checklist system. According to police mentors and partners we interviewed, CM
ratings for some units had been inflated by the CE form’s overdependence on raw numbers of personnel
and equipment on hand. As a result, CM ratings resulting from use of the CE Checklist were not always
reliable in indicating a unit’s capability level.7 In February 2010, a police mentor team leader in Kunduz
Province, RC-North, responding to our questions, wrote, “The CM report spits out a rating that to me
indicates a much higher level of competence than I am trying to report… The CM Rating does not
provide an accurate assessment of the district. If your numbers are good, the form will spit out a high
CM rating.”




5
 National caveats are limits imposed on the operations of international partners’ troops, to ensure those troops
are used in a manner consistent with their national laws and policies. DOD has noted that the resulting limits on
the operations of international partner forces may limit the ISAF Commander’s ability to utilize his forces (see
DOD’s April 28, 2010 Report on Progress Toward Security and Stability in Afghanistan, p.17).
6
 Seventy percent of the measures listed on the CE Checklist, which until the end of 2009 was exclusively used for
ANP assessments, are quantitative measures of manning, training, and equipping. The balance is an aggregate
measure of answers to 156 YES/NO/NOT OBSERVED questions. Assessments of ANA units also have relied heavily
on quantitative measures, which constituted 50 percent of the factors used in determining a CM rating.
7
 Commanders had the authority to upgrade or downgrade a unit after the generation of a CM rating using the CE
Checklist.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                          Page 7
Most CM assessments for Afghan army units were not created using the CE Checklist; instead, they were
conducted using a variety of methods that had the potential to include more subjectivity. As a result,
ANA ratings may not have been subject to the same reliance on quantitative measures. Nevertheless,
our analysis of ANA TRAT data for March 2010 showed that of 35 CM1-rated units, 6 (over 17 percent)
had the lowest possible “Equipment on Hand” rating, CM4, corresponding to a level of under 50 percent
of equipment authorized. Furthermore, a NATO mentor who had worked with Afghan army units in RC-
South stated that “the CM rating system as it was used in RC South in 2008-2009 was not a reliable
predictor of Afghan army unit effectiveness. It had no relation to an Afghan unit’s ability to operate
independently.”

One example of the effect of the CM system’s reliance on quantitative measures emerged during our
field observations of Afghan army and police units. We found that army and police units, including
those rated at the highest capability level, CM1, were fully supplied with vehicles but lacked a sufficient
number of trained drivers.8 For example, Bati Kot, a top-rated police district in Nangarhar Province, had
10 vehicles on hand, but only 3 capable drivers, at the time of our visit in March 2010. CM assessments
had taken into account only the number of vehicles on hand, but not the number of drivers available to
operate the vehicles.

Officials at IJC and NTM-A/CSTC-A agreed that the CM system’s reliance on quantitative measures had
sometimes created misleading results. IJC officials stated that they expected upcoming changes to the
ANSF assessment system and TRAT process to help remedy the problem by emphasizing qualitative
aspects of assessment.

Personnel Measurements Have Overstated Operational Capabilities

Measurements of personnel numbers have been key quantitative inputs used to generate CM ratings for
ANSF units. Although personnel levels have been measured differently for Afghan army and police
ratings, both methods have resulted in overstatements of unit capabilities. For the army, personnel
measurements constituted one of six input categories used to rate the capabilities of Afghan army units.
However, personnel inputs used in ANA unit capability assessments did not reflect operational realities,
as they were based on measurements of the number of personnel assigned to each unit, without also
considering the actual number of soldiers present for duty. Due to substantial absences without leave
(AWOL) and approved absence rates, this method of evaluation has falsely inflated measures of
personnel readiness, contributing to an overstatement of ANA capabilities.9

The effect of substantial AWOL rates and approved absences has been significant. According to an IJC
report, as of March 2010, only 74 percent of assigned personnel were present for duty in ANA-fielded
combat units. The ANA’s manning shortage was confirmed in statements by VTT officials who reported


8
 German mentors for the Afghan army’s 2nd Brigade, 209th Corps in Kunduz Province stated that a lack of capable
drivers was one of the most significant impediments to the development of operational effectiveness.
9
 MOD’s definition of AWOL includes those personnel absent from regular duty after 24 hours. MOD does not
consider personnel late back from leave to be AWOL. Additionally, according to officials at NTM-A/CSTC-A, an
MOD AWOL amnesty was in place for ANA personnel through the end of the last solar year, 1388. That amnesty
allowed troops to return to the rolls without punishment.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                     Page 8
that “foxhole strength” is often low, potentially reducing kandak (battalions) to company size.10 Our
analysis of CM rating records showed that, as of March 2010, 99 of 150 ANA units (66 percent) received
a top rating for personnel. However, even with a top rating for personnel, a unit may have a low
number of personnel present for duty. For example, as of March 2010, the 1st kandak of the 3rd Brigade,
205th Corps, was granted a CM1 rating for personnel, based on a fill rate of 99 percent. Specifically, this
kandak had 796 personnel authorized and 795 assigned. However, the same unit had only 469
personnel present for duty, giving it a present-for-duty rate of 59 percent, which would have
corresponded to a CM3 personnel rating. 11

Police unit capabilities also have been overstated by personnel measurements, which are one of several
quantitative inputs used to generate CM ratings. Personnel inputs for police unit assessments have
incorporated measures of authorized, assigned, and available personnel levels. However, the number of
“available” personnel does not correspond with those present for duty because it includes personnel
detailed to other locations. According to statements by police mentor and partner teams and our
review of police unit assessment records, reassignment has been a significant problem at the district
level, leaving numerous police units without sufficient personnel to operate effectively. This challenge
has been exacerbated by heavy requirements for manning static checkpoints and outposts, leaving very
few police available for patrols and other mobile operations.

Data on police personnel, which have not been validated, may not be reliable, according to police
mentors and partners. They reported that there was “no accountability” for Afghan personnel, including
no way to verify personnel reports. Within each police district, personnel are often posted at
widespread locations, making personnel monitoring particularly challenging in non-permissive security
conditions. Officials from NTM-A/CSTC-A, IJC, Dyncorp, State/INL, as well as police mentors in RC-
Capital, RC-North and RC-East, stated that ongoing monthly reporting of police personnel levels were
not reliable. However, NTM-A/CSTC-A also reported that Ministry of Interior (MOI), with U.S. and
Coalition support, had made progress in developing a snapshot inventory of police through an ongoing
personnel inventory.

CM Rating Level Definitions Lacked Consistency

CM rating definitions have varied, inhibiting a common understanding of rating levels among ANSF
mentors and partners conducting unit assessments. Rating definitions have changed as the assessment
system evolved; however, we also identified contemporaneous differences in CM rating definitions. For
instance, an IJC FRAGO (fragmentary order) dated November 30, 2009, regarding TRAT reporting
contained full CM rating definitions for ANA ratings and references to CE form version 5.15, which
contained a different set of definitions.12 Furthermore, an ANA unit assessment report, completed
shortly after the IJC FRAGO was issued, contained another definition of CM1 (see Table 3). ANSF
mentors and partners reported that they noticed a lack of consistency in CM level definitions and were
concerned that this would result in a lack of equivalence between assessments.

10
     The ANA is transitioning from three to four line companies per kandak.
11
     Present-for-duty as a rate constitutes the ratio of present-for-duty personnel to assigned personnel.
12
 ISAF Joint Command, Transition Readiness Assessment Tool Reporting, HQ ISAF//FRAGO/42-2009, November 30,
2009.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                           Page 9
Table 3: Varying Definitions for CM1
Source              Date              Document               CM1 Definition

IJC                 Nov. 30, 2009     FRAGO 042-2009         “CM 1 unit is fully capable of planning, executing, and
                                                             sustaining counterinsurgency operations at Battalion
                                                             Level with coalition support required in Close Air Support
                                                             (CAS) / Medical Evacuation (MEDEVAC) / Indirect (ID)
                                                             Fires only.”

NTM-A/CSTC-A        Nov. 30, 2009     Capability             “CM 1. (Full Operational Capability - FOC) The unit,
                                      Endorsement            agency, staff function, or installation is capable of
                                      checklist form         conducting primary operational mission(s). Capability, in
                                                                                                         13
                                      version 5.15           terms of DOTMLPF, is defined at >85%.”

Regional            Jan. 10, 2010     ANA kandak             “Level 1 unit is fully capable of planning, executing, and
Command West                          assessment             sustaining independent counterinsurgency operations.
                                      submission             Battalion Level.”

Source: SIGAR analysis of data provided by IJC and NTM-A/CSTC-A.

Weaknesses in ANSF Evaluation Tools Yielded Inconsistent Assessment Results

According to ANSF mentors/partners, the CE checklist has weaknesses that have resulted in uncertainty
among assessors and inconsistent assessment results. Mentors and partners stated that they often did
not have a clear understanding of what was intended by each CE assessment question and were
concerned that this may have affected assessment results. They also noted that high levels of non-
response within the assessment tool did not prevent the generation of a CM rating level and were not
noted in summary reports.

On November 30, 2009, IJC ordered all army and police mentors and partners to use the same
assessment evaluation form: CE checklist version 5.15. Before that date, ANA mentors/partners used a
less structured system of reporting, including more subjective narrative assessments. Even though the
CE checklist, which was originally designed for use by police mentors/partners, was revised for use in
ANA assessments, a number of questions inappropriate for ANA evaluation remained. For example, the
form still stated “Is the unit aligned with the most current MoI approved payroll system and processes?”
and “Does the ANP follow Afghan criminal law and crime procedure requirements for processing
crime?” As of February 2010, according to IJC officials, very few ANA mentors/partners had adopted the
CE checklist for use in assessing army units.

Other sources of variation in measurement methods have contributed to concerns about equivalence
between ANSF evaluations. Due to the less-structured requirements associated with the original ANA
assessment process (prior to December 2009), army mentors and partners provided a considerable




13
  U.S. military doctrine divides force development into domains: doctrine, organization, training, materiel,
leadership and education, personnel and facilities (DOTMLPF).

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                             Page 10
range of assessment submissions.14 Mentors and partners conducting ANP evaluations were using, at
some points in time, entirely different versions of the CE checklist that assessed capabilities differently.15
In addition, some ANP assessment submissions included valuable, subjective narrative evaluations
written by mentors and partners; however those were not required elements of an evaluation and were
not consistently completed. Further, in our review of CE checklist submissions for ANP assessments, we
noticed a wide range in the number of unobserved items on each CE assessment form. Officials at NTM-
A/CSTC-A stated that, since the CE checklist’s introduction in 2005, no attempt had been made to
evaluate its internal consistency or other aspects of its effectiveness.

Police Units Have Not Been Independently Validated

VTTs independently validate ANA units before their designation as a CM1-rated unit. Applying uniform
capability standards through an independent validation was intended to help standardize the
assessment process and to capture lessons learned regarding ANA units and their development. ANP
units, by contrast, have not been subject to independent validations. As of February 2010, 4 of 7 ANA-
dedicated VTT teams had been reassigned to support the ANSF training mission. Thus, it was unclear
whether sufficient resources would be available to extend the program to the ANP.




14
  ANA assessment submissions we reviewed from mentors and partners included various formats, such as
narratives in Word documents, Mission Essential Task List evaluations in Excel spreadsheets, and PowerPoint slide
compilations.
15
     For example, unlike version 5.x of the CE checklist, version 4.x did not assess ANP facilities.
SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                       Page 11
SUMMARY REPORTS INCLUDED OUTDATED DATA AND OVERSTATED ANSF CAPABILITIES

Decision makers hoping to gauge progress in U.S. and Coalition efforts to develop capable Afghan
security forces depend on summary reports of CM rating results. However, these reports have included
outdated assessment data without indicating them as such. A lack of quality control measures and
resources at IJC also contributed to weaknesses in the analysis and reporting of ANSF assessment
results.

ANSF Capability Rating Reports Included Outdated Assessment Data
TRAT reports of ANSF capability ratings regularly included outdated assessment data due to missing
submissions from ANSF mentors and partners, according to officials at IJC, NTM-A/CSTC-A, and
State/INL. Officials at IJC and NTM-A/CSTC-A stated that monthly CM assessment submissions were
typically missing due to: (1) a lack of mentors/partners to provide reporting; (2) turnover from one
mentor/partner team to another; (3) technical problems in submitting reports from certain areas of the
country; and (4) the reluctance of NATO police mentor teams to
perform mentoring tasks, due to security concerns and national         Table 4: Missing Police Assessments,
caveats.                                                               September 2009 to February 2010

                                                                                      Missing Police
In our analysis of IJC records for the ANP, we found that, from
                                                                                      Assessments
September 2009 through February 2010, as many as 44 percent
                                                                         SEP 09       12 of 63 (19%)
of police district reports had been missing in a single month (see
Table 4). In some cases, we found ratings that had been carried          OCT 09       33 of 108 (30%)
over for as long as 4 months. We were unable to perform a                NOV 09       23 of 108 (21%)
parallel analysis for ANA assessment submissions during this             DEC 09       32 of 72 (44%)
time period, as IJC was not able to provide a full set of ANA            JAN 10       7 of 89 (8%)
assessment records.
                                                                         FEB 10       23 of 126 (18%)

IJC Performed Limited Quality Control over Assessment
Data before Submitting Summary Reports
Although IJC/ADAB had copies of all submitted ANP assessment files, they did not have ANA
assessments on file. This lack of access to the underlying assessment reports used to create TRAT
summaries meant that IJC could perform only limited quality control and analysis of the assessment
data. When we requested copies of all ANA unit assessments for October 2009 and January 2010,
IJC/ADAB attempted to retrieve copies from the Regional Commands, but was unable to obtain a full set
of files.

IJC performed limited quality control or analysis of ANP assessment results. According to officials at
IJC/ADAB responsible for aggregating ANP assessment files, the complex data included in the
assessments had raised concerns because it appeared to be unduly consistent from 1 month to the next.
However, IJC/ADAB did not conduct any analysis of or quality control over the data within assessment
files, due to a lack of resources.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                     Page 12
Overstated Police Capabilities: The Case of Baghlan-e Jadid
IJC’s March 2010 TRAT report included a CM1
rating for the Baghlan-e Jadid police district in the
northern Afghan province of Baghlan. The district
first reached a CM1 rating in August 2008 and,
according to IJC, maintained that rating for 9
months until it graduated from the Focused
Police District Development (FPDD) program in
June 2009. However, the Baghlan-e Jadid police
received no direct capability assessments after
that period. According to NTM-A/CSTC-A officials,
full graduation signified that a police unit had
reached a level of capability at which it was “able
to function on its own” and would no longer be
rated and monitored by U.S. or Coalition forces.
At graduation, all U.S. and Coalition
mentors/partners were removed. As of March
2010, direct assessments of the police in that district had still not been conducted.

Officials at IJC and NTM-A/CSTC-A and State Department civilian police advisers and contractors all
stated that, in the absence of any direct assessment, they had grave concerns about assuming that
Baghlan-e Jadid had sustained its top-level capabilities. Explaining their doubts, officials cited
increasingly challenging security conditions and the widespread tendency for other police districts to
regress due to the lack of continuous mentoring/partnering and heavy attrition. An NTM-A/CSTC-A
official stated that two other ANP districts had progressed to the stage just before graduation, but
regressed after their original police mentor teams were withdrawn. IJC and NTM-A/CSTC-A officials
agreed that reporting on districts not receiving monitoring in parallel with actively evaluated districts
was misleading.

In February 2010, our team requested support for a visit to the Baghlan-e Jadid police district. U.S.
police mentors working in Regional Command North stated that they could not support our request
because the police district was “not secure.” We also consulted IJC officials who said that the district
was “overrun with insurgents.” One IJC official commented, “Unfortunately, *FPDD+ graduation has
become synonymous with CM1 (a super CM1 if you will) that doesn't exist at all in reality.” He added
that in his opinion the Baghlan-e Jadid police force had “withered away to the point that it barely
functions.” Another U.S. military official, operating from within RC-North said, “I doubt CM1. Most of
their police officers do not even have uniforms, nor has the majority received basic training, either.”

In February 2010, IJC officials told us that Baghlan-e Jadid would be part of a new focus of intensive
work to improve certain priority districts around the country.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                  Page 13
DOD Reported Capability Ratings for Afghan Police Units That Had Not Been Assessed by
Mentors or Partners

Afghan police TRAT summary reports we reviewed only included CM ratings for police units that had
been assessed by mentors or partners. However, in some reports to Congress, DOD reported capability
ratings for more police units than had actually been assessed. Units that had not been assessed were
reported by DOD at the CM-4 level. In biannual reports to Congress, prior to April 2010, Defense
reported capability ratings for as many as 559 ANP units.16 However, as of March 2010, only 229 police
units were being directly mentored or partnered and assessed using the CM system, according to IJC
reports. IJC and NTM-A/CSTC-A officials agreed that the charts included in DOD’s June 2009 and
October 2009 reports to Congress on Progress toward Security and Stability in Afghanistan included CM
ratings for units that had not been assessed. Regarding this matter, OSD told us that the DOD reports
had relied on data from CSTC-A which included CM-4 ratings for units that had been provided
equipment or training, but had not been assessed by mentors or partners. According to IJC and NTM-
A/CSTC-A officials, a continued shortage of mentors had limited police development efforts to the
subset of police districts identified as most important to achieve campaign plan goals and in which FPDD
or In-District Reform (IDR) training had been provided and police mentors/partners were present.
Because the system for ANSF assessment was under review, DOD did not include an ANP ratings chart in
its April 28, 2010, report to Congress.17

During our field work, we found that a number of police units were being mentored but not assessed.
Mentors were assigned to these districts but no assessment reports had been filed because the ANP unit
had not received FPDD or IDR training. IJC was unable to state how many police units were being
mentored but not assessed, but officials at Regional Commands South and West identified at least 14
police districts in which this was the case.

The CM assessment system relies solely on the reports of military mentors/partners. However, civilian
contractors have provided training and mentoring of police units in districts where military personnel
are not assigned. According to an IJC official, in these districts, IJC and NTM-A/CSTC-A did not track the
development of police units. For instance, contractors have provided training and mentoring for
specialized police units, including Afghan National Civil Order Police (ANCOP), Afghan Border Police, and
Counter-Narcotics Police, none of which had been routinely assessed.




16
  The ANP includes the Afghan Uniformed Police (AUP), the Afghan National Civil Order Police (ANCOP), the
Afghan Border Police (ABP), as well as specialized units such as counterterrorism and counternarcotics police.
17
 DOD is required to report to Congress every 180 days, in accordance with sections 1230 and 1231 of the
National Defense Authorization Act for Fiscal Year 2008 (Public Law 110-181), as amended.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                        Page 14
U.S. AND COALITION ASSESSMENT EFFORTS HAVE FACED CHALLENGES

A variety of factors affect U.S. and Coalition efforts to assess ANSF capabilities and the consistency and
quality of assessments. Key challenges have included poor security conditions, shortages of police
mentors, and inadequate training of mentors and partners in assessment methods.

Security Conditions Have Affected Mentor and Partner Assessment Efforts
According to IJC, NTM-A/CSTC-A, and State/INL officials and Dyncorp civilian police advisers,
Afghanistan’s non-permissive security environment has been a significant challenge for ANP mentoring
and assessment. Increased security demands in many areas of the country have required a heavy troop
presence to provide effective mentoring or partnering after basic police training. Mentoring or
partnering has been more risky for ANP than for ANA units, given IED (improvised explosive device)
threats to ground movements and the greater dispersion of police units, which has required mentor
teams to “commute” to work. Furthermore, since ANP units tend to be relatively small compared with
ANA units, ANP mentor/partner teams have lacked the backup protection afforded to ANA
mentors/partners by their co-location with large units of ANA personnel.

ANP mentoring and assessment has been significantly limited and sometimes ineffective in areas where
enemy activity is intense. In some cases, force protection resources were insufficient to allow for
movement; in others, mentoring and assessment duties were challenged by the conflicting priorities of
commanders. According to a July 2009 report by civilian police advisers in Wazi Zadran police district of
Paktia Province, the mentor team’s movements were restricted due to diminished manning and
challenging security conditions. The report stated that mentors had not been able to visit the police unit
for months, observing, “Mentoring ultimately turned into a few comments or statements put over the
radio to the District Center.” Narratives within U.S. and Coalition police assessment reports also noted
security concerns, citing security-related operational constraints as a challenge to mentoring and
assessment. The October TRAT participants noted that mentors had experienced difficulties in gaining
access to police posts, with some locations accessible only by air.

IJC and NTM-A/CSTC-A officials said that mentor/partner performance had a significant effect on
development and assessment practices. Anecdotal evidence pointed to variation in mentor/partner
efforts, but IJC and NTM-A/CSTC-A did not attempt to assess performance systematically, according to
these officials. TRAT reports and officials at IJC and NTM-A/CSTC-A raised specific concerns about
variations in the quality and extent of the mentoring performed by NATO mentor/partner teams, citing
national caveats and guidelines as constraining factors that had limited the efforts of some NATO teams.

Mentor and Partner Shortages Have Reduced the Effectiveness of Mentoring and Assessment
The ANSF training mission has been challenged by longstanding mentor/partner shortfalls, which are
likely to remain an issue as ANSF growth continues. Shortfalls have been particularly severe with regard
to the ANP development effort, constraining the expansion of police training programs as well as the
effectiveness of police mentoring/partnering after basic training. As of March 29, 2010, IJC reported
that, while all U.S. commitments for mentor/partner teams had been fulfilled, NATO had failed to
deploy the 38 army mentor/partner teams and 163 police mentor/partner teams required to meet the
demands of current force development goals. IJC officials told us they could not provide an estimate of
these shortfalls in terms of actual numbers of personnel required, since no mandatory personnel size

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                 Page 15
requirement had been defined for NATO mentor and partner teams. Nevertheless, according to an April
2010 Department of Defense report, a typical NATO mentor/partner team consists of 40 personnel.18
That report also noted, “Without sufficient mentors and trainers, our ability to effectively grow and
develop the ANSF is at risk.”

According to IJC officials, ANSF assessments had been submitted each month without any evaluation of
the level of access mentors and partners had to their assigned units. Although they lacked systematic
measurements, officials at IJC/ADAB and State/INL said they knew that CM ratings for some ANP units
had been submitted without sufficient mentor or partner contact to support the assessment results.
Mentor and partner teams we interviewed agreed, saying they were typically overstretched, responsible
for mentoring/partnering with numerous ANSF units, and that they sometimes had to neglect certain
ANSF units over others. An October 2009 police mentor report from Moqur, in Ghazni Province,
acknowledged that low mentor coverage at that district made the rating suspect and their ability to
advise and assist problematic. In another example, one Kabul police mentor team that received an
additional assignment to train a problematic ANA kandak, resorted to occasionally calling its police
districts rather than observing them directly. The team had continued to submit CM assessments under
these conditions but said that its ability to mentor and assess effectively had been seriously impaired.

Mentors and Partners Lack Adequate Training
Military personnel serving as ANSF mentors and partners lack adequate training to support their
mission, according to mentor and partner teams and IJC/VTT officials. ANP mentors stated that they
found that they were unprepared for their duties and unfamiliar with MOI regulations concerning ANP
operations. Mentors/partners reported that insufficient guidance and training made it difficult to assess
police districts’ compliance with MOI decrees and guidance, as required in numerous questions on the
CE checklist. In response to our written questions, mentors in RC-North reported, “The fundamental lack
of training of [police mentor teams] in essential MOI decrees, procedures, and common problems
hampers the *police mentor team’s+ ability to provide meaningful information and the lack of a
comparable standard creates a large degree of subjectivity from one team to the next.” According to
IJC/VTT, army mentors have faced similar challenges, including the lack of training on ANA systems and
Ministry of Defense (MOD) decrees and guidance.

To support ANSF assessors’ use of the CE checklist, NTM-A/CSTC-A produced a video training program
and an instruction manual. However, the mentors/partners we interviewed criticized the video and
other materials, stating that they were focused on technical aspects of completing the form, rather than
on assessment practices. The assessors said that to improve the quality and consistency of their
evaluations they needed additional guidelines to enhance their understanding of assessment criteria
and best practices.




18
     DOD, Progress toward Security and Stability in Afghanistan, April 2010, p. 17.
SIGAR Audit-10-11 Security/ANSF Capability Ratings                                              Page 16
SYSTEMIC ANSF DEFICIENCIES HAVE UNDERMINED EFFORTS TO DEVELOP UNIT CAPABILITIES

Systemic ANSF deficiencies have undermined progress toward developing independent Afghan security
forces. These deficiencies include logistics problems, personnel attrition, inadequate personnel
authorizations, infrastructure challenges, corruption, and drug abuse and illiteracy. In commenting on a
draft of this report, NTM-A/CSTC-A stated it is aware of these deficiencies and is working to address
them (see appendix III).

Severe Logistics Problems Challenge the Development of Self-Sustaining Operations
Deficiencies in ANSF logistics have challenged U.S. and Coalition efforts to develop independent army
and police forces for Afghanistan. The CM assessment system has included measures designed to
evaluate an army or police unit’s ability to carry out logistics functions crucial to self-sustainment.
However, officials of IJC, NTM-A/CSTC-A, State/INL, ANSF partners and mentors, VTT teams, employees
of DynCorp, and Afghan army and police commanders uniformly described above-unit-level problems
with logistics support functions as significant impediments to the development of self-sufficient ANSF
units. At every ANSF unit we visited, army and police alike—including top-rated CM1 units—we found
logistics supply problems directly interfering with unit operations. Army and police mentors and
partners for all 18 units we visited reported that logistics support was a severe problem and supply-
request systems non-functional. Assessment reports we reviewed for other units echoed this concern.
Mentors and partners reported vanishing supply requests, hoarding at provincial and Corps levels, and
an inability to track supply-request forms through the ministerial supply chain systems.

Police mentors and partners told us that logistics failures were not only affecting operational
effectiveness and life support, but also challenging efforts to develop ANSF confidence in ministerial
leadership and draining ANSF morale. Police mentors in Kunduz Province wrote in a February 2010
statement, “The logistics system does not function to any acceptable level… *We+ would hesitate to
state that a logistics system even exists.” In another example, an ANP mentor in RC-North noted, “I
would think [the ANP] would be much more eager to be independent of coalition support if they
thought their own system was functional at all. If their own chain of command is broken, what
motivation is there to have us leave? Right now we are the source of all repairs and most other logistics
support.”

ANA mentors and partners also reported severe deficiencies associated with the MOD supply system.
NATO mentors in Kunduz Province described the system as a “fill or kill” process in which requests are
submitted, and then disappear. In other cases, they said supplies were pushed down from MOD, and
thus were not responsive to the units’ needs. A November 2009 assessment report on a CM1-rated
army unit, the 1st kandak 2nd Brigade of the 203rd Corps, reported that the supply process was a failure.
The kandak received no feedback on the status of its supply requests and was primarily dependent on
U.S. soldiers to remedy supply issues.

NTM-A/CSTC-A agreed that logistics challenges are of great concern and stated it has taken a variety of
steps to address known shortcomings, including making plans to field and develop additional ANSF
logistics enablers beginning in FY 2011.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                Page 17
Heavy Personnel Attrition Diminishes Training Gains and Operational Effectiveness
Heavy attrition in the Afghan military and police forces has undermined developmental gains in many
units, by reducing the number of trained personnel available for operations. As of March 2010, the
ANA’s AWOL rate was 12 percent and, as of May 2010, the ANP had an overall attrition rate of over 17
percent. Those losses, coupled with high levels of approved absence and frequent reassignments, have
left many units with insufficient personnel to permit effective operations. For example, according to
NTM-A/CSTC-A, as of February 2010, solar-year-to-date attrition in ANCOP—“the premier force in the
ANP,” according to DOD—was about 73 percent. One ANCOP battalion in RC-West had an attrition rate
of 140 percent over that period.19 The attrition rate for Afghan Border Police over the same period was
27.4 percent, according to NTM-A/CSTC-A.

In many Afghan Uniformed Police units, attrition has drained a large proportion of those originally
trained in the FPDD program. We found numerous examples of this within ANP assessment reports. In
one instance, in July 2009, mentors reported that at Waza Zadran police district in Paktia Province there
were only 6 ANP personnel in place, compared with the tashkil authorization of 53 officers. That district
completed FPDD training in April 2008, when 23 students were trained, according to NTM-A/CSTC-A’s
records. Mentors said this severe attrition was largely due to actions taken by powerful anti-coalition
forces and disappointment over pay levels. NTM-A/CSTC-A documents we reviewed showed that Waza
Zadran had attained a top-level capability rating and had even been slated for graduation from the FPDD
program, as late as April 2009. However, by February 2010, the district had dropped to the lowest
rating level, CM4.

Inadequate Personnel Authorizations Have Inhibited Effectiveness
The goals against which ANSF manning levels have been assessed may not represent end states
adequate to permit independence. Under the CM rating system, an ANSF unit could earn a top CM1
rating for personnel, if it had a full complement of personnel assigned, as compared with the ministerial
tashkil authorization. However, according to mentors/partners and Afghan officials we interviewed, and
assessment reports, some ministerial personnel authorizations have been inadequate to support
effective operations.20 For both army and police forces, the ability of units to support mobile operations,
including patrols and quick reaction force operations has been limited by the number of personnel lost
through attrition and reassignment and the number needed to man checkpoints and outposts.

Infrastructure Challenges Affect ANSF Morale, Security, and Operational Effectiveness
We identified widespread deficiencies in ANSF infrastructure, including problems directly affecting army
and police operations. Facilities were often unable to support the basic needs of assigned personnel,
lacking running water, electricity, and proper billeting and dining facilities. In many cases, police chiefs
were choosing to use fuel to run generators, rather than conduct patrols. Facilities problems were
directly affecting the morale and operational readiness of fielded units. We observed serious
infrastructure issues at many units we visited, including those rated CM1. In addition to basic life

19
  DOD reported in April 2010 that NTM-A/CSTC-A, MoI, and EUPOL have established an ANCOP Working Group to
examine how to reduce attrition and improve the ANCOP program.
20
  Similar observations regarding insufficient police authorizations were recorded in the September 2009 DOD
Inspector General report, SPO-2009-007, Report on the Assessment of U.S. and Coalition Plans to Train, Equip, and
Field the Afghan National Security Forces, p. 112.
SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                       Page 18
support issues, infrastructure problems have raised security concerns. At police units we visited,
including those rated CM1, we observed examples of inadequate security perimeters and unsecured
weapons storage areas. Mentor and partner reports frequently noted that facilities issues were holding
back development and raised concern about units’ ability to operate independently, without long-term
solutions to facilities maintenance issues. An October 2009 assessment report from Dand Patan police
district in Paktia Province noted, “Facility maintenance is critical... MOI must create a long term solution
for this issue however if ANP are ever to become truly autonomous.”

Mentors and partners acknowledged that widespread efforts have been under way by the United States
and Coalition partners to help improve ANSF facilities. Nevertheless, they also reported pervasive
delays in construction projects. Construction delays of over a year at the 2/209th brigade garrison
project we visited in Kunduz Province had left four kandaks housed in temporary facilities, dramatically
restricting training and operations. 21 During our February 2010 visit, we observed Afghan army
personnel coping with deep mud, freezing conditions, unsanitary shower and bathroom facilities,
inadequate dining facilities, medically unsafe food storage, and sewage being openly discharged on the
surface of the compound.

Corruption Has Undermined the Development of ANSF Independence
In addition to its corroding effect on public confidence in ANSF and thereby the Afghan government,
corruption was cited by army and police mentors and partners as a key factor undermining
developmental progress and morale at the unit level. ANP mentors and State/INL officials we
interviewed expressed doubts about the validity of top ratings in certain police districts, due to the
effects of corruption problems. Mentors and partners we interviewed and assessment reports we
reviewed observed that ANSF corruption has affected the leadership of many units, disrupted supply
chain operations, and diminished willingness to cooperate with mentoring/partnering efforts in some
cases. For example, in a February 2010 TRAT report on ANP capabilities, RC-East commanders
commented, “Corruption of Senior ANP Leaders continues to thwart all of our developmental efforts.”
RC-West commanders also weighed in, reporting, “Corruption is continuing to plague the Western ANP,
and this includes an increase of influence by the [insurgents’+ shadow government.”

Corruption has had direct negative effects on daily ANSF operations in the following areas:
        Supply chain: Police assessments prepared in October 2009 and January 2010 cited multiple
         instances of Afghan police officials selling ANP materials, taking money from transport trucks at
         checkpoints, skimming fuel, and pilfering supplies, including weapons.
        Fuel: Corruption has affected fuel availability and distribution within the ANSF, and thus the
         operational effectiveness of army and police units. Problems with fuel accountability, including
         siphoning and selling fuel, were widely reported in police unit assessments and detailed for us
         on our visits to army and police units around the country. An October 2009 report on a top-
         rated police unit in Chaparhar, Nangarhar Province, stated that the lack of accountability for fuel


21
 SIGAR conducted a separate audit of contract performance and oversight for the construction of the ANA
garrison at Kunduz. See SIGAR, ANA Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements;
Serious Soil Issues Need to Be Addressed, 10-09, April 20, 2010.

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                    Page 19
        was the greatest issue in sending out patrols. A January 2010 report from Bala Boluk, Farah
        Province, described fuel-related corruption as a “perpetual problem.”
       Illegal checkpoints: Mentor/partner reports noted that in some places it was typical for Afghan
        police to “shake down” travelers for money in order to pass through districts.
       Personnel: Misuse and diversion of police personnel were cited in numerous police assessments
        as challenges to effective operations, weakening the present-for-duty strength of many police
        units.
       Pay and rank: Pay fraud and rank abuse were widely reported, although electronic fund transfer
        programs were credited with reducing payroll abuse in some police units. Reports of ghost
        police were common and RC-North police mentors stated that paying for promotion was
        commonly accepted among the ANP. Mentors in Ghowrmach police district, Baghdis Province,
        reported in October 2009 that, even though electronic fund transfer was not available for the
        unit due to its remote location, pay continued for absent police, those whose loyalties were
        suspect, and officers who had never worked in the district.

Corruption also has directly affected the ability of U.S. and Coalition forces to mentor and partner
effectively with ANSF units. Mentors and partners we interviewed said corruption at the police chief or
kandak commander level had undermined their efforts to develop ANSF units. NTM-A/CSTC-A stated
that it has taken actions to combat corruption, including steps such as assisting MOI in conducting a
Personnel Asset Inventory (PAI) and implementing Electronic Funds Transfer for ANSF pay delivery.

Drug Abuse and Illiteracy Continue to Challenge Operational Effectiveness
Drug abuse continues to be a problem for the Afghan army and police. As of February 2010, results from
drug tests during a personnel asset inventory of the Afghan police force overall showed positive results
for drug use in 17 percent of police tested. NTM-A/CSTC-A officials who assisted MOI with the inventory
said that this rate was likely understated, and the March TRAT report noted that the inventory results
for Ghazni and Paktika Provinces were returning an average usage rate for controlled substances of at
least 50 percent, with the highest rates in more remote areas. In addition, assessment reports and
mentors and partners at many of the army and police units we visited cited instances of drug and
alcohol abuse. According to several officials with responsibility for ANSF development, an extreme case
of drug abuse had occurred at an ANCOP unit of about 100 personnel based at Nimla Gardens,
Nangarhar Province. There, according to eye witness accounts from U.S. military personnel, ANCOP
personnel were openly using marijuana and were unwilling to conduct operations or even leave their
compound.

Although steps have been taken to introduce literacy training for the Afghan army and police, high levels
of illiteracy in both forces continue to hamper development. Army and police mentors/partners stated,
and assessment reports corroborated, that illiteracy has constrained the development of support
systems such as personnel management and logistics, including accountability for equipment and fuel.
Widespread illiteracy was also cited as an impediment to the development of intelligence and navigation
capabilities. In response to the problem of ANSF illiteracy, NTM-A/CSTC-A has made literacy training
mandatory for all ANSF soldiers and police and continues to increase the number of literacy instructors.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                              Page 20
CONCLUSIONS

Weaknesses in design and implementation of the CM rating system have led to variable results and have
impeded a clear understanding of the operational effectiveness of ANSF units. The Department of
Defense and ISAF have expressed concerns about the risk of using an assessment system that provides
an ineffective measure of performance. Acknowledging the risk such a system poses, DOD reported in
late April 2010 that General McChrystal was considering alternatives to CM ratings. According to IJC
officials, the CM rating is being replaced with a new unit-level assessment system. Moving forward, it is
critical that whatever assessment system is used to evaluate ANSF units should provide consistent and
reliable reporting of operational effectiveness. Without such measures, decision makers will not have a
clear understanding of the extent to which progress is being made in developing Afghan security forces
capable of independently conducting operations, and ultimately securing Afghanistan.


RECOMMENDATIONS

We are including ten recommendations for ISAF Joint Command (IJC) and three for NATO Training
Mission-Afghanistan/Combined Security Transition Command-Afghanistan (NTM-A/CSTC-A) intended to
improve the reliability of future ANSF assessments and to support U.S. and international efforts to
develop ANSF capabilities.

Recommendations for IJC:

To improve measurement and validation techniques in order to obtain more reliable assessments of
ANSF operational effectiveness, we recommend that IJC:

        1. Place greater emphasis on subjective assessment of overall operational capability provided
           by mentor and partner team evaluators, including a requirement to complete narrative
           observations.
        2. Support the completion of meaningful and consistent evaluations, by developing a manual
           for mentor and partner team assessors that incorporates real-world examples and best
           practices.
        3. Work with NTM-A/CTSC-A to provide additional training and guidance to mentor and
           partner teams regarding the nature of MOI and MOD decrees and procedures.
        4. Encourage an equivalent understanding among raters of different ANSF units by ensuring
           rating-level definitions are consistent.
        5. Incorporate present-for-duty figures as a percentage of assigned personnel into assessments
           for both police and army units. Note: Until reliable present-for-duty numbers are available
           for police units, we recommend that IJC incorporate a separate measurement for tracking
           “available” personnel who have been detailed to other locations (i.e., available, but not
           present).
        6. Conduct independent validations of top-level Afghan police unit capabilities.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                              Page 21
To improve the transparency and accuracy of ANSF assessment reporting, we recommend that IJC:

        7. Begin to systematically track the number of unit-level evaluations not submitted each
           month and the number of elements not observed within those assessments.
        8. Add an additional overall rating level to represent units “not assessed” where no
           mentor/partners are assigned.
To maximize visibility into Afghan police capabilities, we recommend that IJC:
        9. Require all U.S. and Coalition military mentor and partner teams to submit unit assessments
           and that IJC begin requesting unit assessments from civilian advisers in those districts where
           military mentors/partners are not assigned.
To counteract perverse incentives resulting from the application of the ANSF assessment system, we
recommend that IJC
        10. Evaluate, in conjunction with NTM-A/CSTC-A, MOI, and MOD, the creation of an incentive
            system to reward Afghan units for the development of validated, top-level operational
            capabilities.


Recommendations for NTM-A/CSTC-A:
To help develop compliance with ministerial logistics systems and increase the transparency of ANSF
logistics operations, we recommend that NTM-A/CSTC-A:
        1. Work with MOI and MOD to implement functional tracking systems for monitoring supply
           requests.
To counterbalance the effects of attrition in FPDD units, we recommend that NTM-A/CSTC-A:
        2. Develop a program to systematically provide backfill training for new recruits assigned to
           previously-trained FPDD districts.
To facilitate the training of as many drivers as possible and improve operational effectiveness at the unit
level, we recommend that NTM-A/CSTC-A:
        3. Implement a train-the-trainer driving program to allow each ANSF unit (district or kandak)
           to extend driver training using its own personnel.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                Page 22
COMMENTS

IJC, NTM-A/CSTC-A, OSD Policy, and OSD Personnel and Readiness provided written comments on a
draft of this report. These comments are provided in appendix II, III, IV, and V, respectively, along with
our response to the comments.

In its response, IJC concurred or partially concurred with ten recommendations. As noted in our report,
in April 2010, IJC adopted a new ANSF assessment system. IJC stated in its response to our report that it
intended to address our recommendations as part of its implementation of that new system, the
Commander’s Unit Assessment Tool (CUAT). IJC disagreed with two recommendations, which we have
removed from the final report because IJC’s responses fulfilled the spirit of our recommendations. In
commenting on a draft of our report, IJC said our report should have great utility and described our
work as accurate, well-informed, and comprehensive.

In its response, NTM-A/CSTC-A concurred with our recommendations, but suggested that our report
included information that was out of date. Our audit work was conducted from October 2009 through
May 2010 and relied on interviews and information collected over that entire period, including field
observations of 18 ANSF units made during February and March 2010 and detailed reviews of ANSF
assessment documents dated through March 29, 2010. NTM-A/CSTC-A provided additional information
regarding progress in ANSF development, including its 180 Day Internal Review and Way Forward, dated
May 29, 2010. Lieutenant General Caldwell, Commander of NTM-A and CSTC-A, stated that the
additional materials contain important information regarding NTM-A/CSTC-A’s efforts and challenges
ahead.

In its response, OSD Policy provided additional information, including clarification about the nature of
DOD reports to Congress and comments regarding DOD’s concerns about the CM system. We included
some of this information in our report.

OSD Personnel and Readiness also commented on our report, and provided additional information
regarding the history of efforts to improve ANSF assessments, including details on OSD’s involvement in
attempting to address reliability and integrity problems with the CM rating system. We have included
the additional information provided in appendix V of our report.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                 Page 23
APPENDIX I: SCOPE AND METHODOLOGY

This report provides the results of the Office of the Special Inspector General for Afghanistan
Reconstruction’s review of the assessment system used to rate ANSF capabilities.

To evaluate the reliability of the CM rating system, we reviewed documentation from and conducted
interviews with responsible officials from IJC, NTM-A/CSTC-A, State/INL, OSD/Policy, Embassy Kabul,
CENTCOM, DynCorp, MPRI, Border Management Taskforce, Provincial Reconstruction Team Kunduz,
Task Force Mountain Warrior, RC-East ANSF Development Section, Afghan army and police
commanders. Additionally, to obtain firsthand evidence regarding the capabilities of fielded Afghan
army and police units and the evaluation of those capabilities at the kandak and district/precinct level,
we performed direct observations at 18 Afghan army and police units in the following locations: Afghan
Uniformed Police Kabul Districts 1, 3, 7 and 11; Aliabad Police District, Kunduz Province; Kunduz City
Precincts 2, 3, and 4 plus associated checkpoints and outposts; Kameh Police District, Nangarhar
Province; Bati Kot Police District, Nangarhar Province; Provincial Police Headquarters Nangarhar
Province; ANCOP 3rd Kandak Headquarters, Nangarhar Province; OCC-P Nangarhar Province; ANA 2nd
BDE, 209th Corps, including 3 infantry kandaks and one CSS kandak; and ANA 3rd BDE, 201st. At all
locations, to understand challenges facing assessment efforts and concerns regarding the assessment
system we interviewed mentors and partners—including U.S. and Coalition forces—assigned to work
with the Afghan units. Our interviews with NATO mentors and partners included military personnel from
Germany, Belgium, and Canada. At every army and police unit we visited, we also interviewed Afghan
officials. To understand the role of civilian police advisers in ANP mentoring/partnering and evaluation,
we met with officials of State/INL in Washington, D.C. and Kabul, as well as officials of DynCorp in
Afghanistan. We also met with MPRI, to obtain information about that company’s role in supporting
ANSF development, including systems.

To examine ANSF assessment procedures, including methods of analysis and reporting, we held several
meetings each with officials from NTM-A/CSTC-A CJ5 and IJC Assessments. We also met on several
occasions with IJC’s ANSF Development Assistance Bureau to understand the system by which
assessment reporting has been processed at IJC. We also met with the ANSF Development Section for
RC-East, and the ANSF Coordinator for Taskforce Mountain Warrior in Nangarhar Province. To examine
ANSF development efforts as they related to assessment practices, in Kabul, we met with NTM-A/CSTC-
A’s Command Training Advisory Group—Army and Command Training Advisory Group—Police, NTM-
A/CSTC-A CJ7 (Force Integration and Training), NTM-A/CSTC-A CJ5, NTM-A/CSTC-A CJ1, and the Border
Management Task Force. We met with NTM-A/CSTC-A’s Office of Security Cooperation regarding efforts
to improve weapons accountability. We also attended TRAT meetings at Camp Phoenix and IJC HQ, in
October 2009 and February 2010 and conducted 2 meetings with members of IJC’s Validation Transition
Team, in October 2009 and February 2010.

We performed documentary reviews of TRAT reports for both the Afghan army and police for each
month from October 2009 through March 2010. We also reviewed, for qualitative and quantitative
information, 87 CE Checklist file submissions for Afghan police districts or precincts as submitted in
October 2009, and 113 such files as submitted in January 2010. We were unable to obtain a comparable
set of Afghan army assessment submission files, but reviewed an incomplete sample of assessment
submissions representing examples from October 2009, November 2009, and January 2010. Our review
also included 96 narrative district reports regarding Afghan Uniformed Police units, prepared by

SIGAR Audit-10-11 Security/ANSF Capability Ratings                                                Page 24
DynCorp civilian advisors. To determine the extent of regression amongst ANSF units, we reviewed all
available CM ratings for ANA and ANP units from February 2009 through January 2010. We counted the
occurrence of rating-level regressions during this period, looking at declines from any level and also
counting declines from the CM1 rating level. Since our analysis required at least two data points for
comparison, we included only those ANA and ANP units that had at least two CM ratings during this
period.

To examine the effects of challenges on U.S. and Coalition assessment efforts and to examine systemic ,
ANSF deficiencies that have undermined efforts to develop unit-level capabilities, we reviewed
documentation from and conducted interviews with responsible officials from IJC, NTM-A/CSTC-A,
State/INL, DynCorp, Task Force Mountain Warrior, RC-East ANSF Development Section, U.S. and
Coalition army and police mentors and partners, and Afghan army and police commanders. We also
made observations while visiting the ANSF units listed above. We also performed detailed reviews of
assessment records for both Afghan army and police units, as detailed above.

We conducted work in Afghanistan and Washington, D.C., from October 2009 through May 2010 in
accordance with generally accepted government auditing standards. These standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives. The audit was
conducted by the Office of the Special Inspector General for Afghanistan Reconstruction under the
authority of Public Law No. 110-181, and the Inspector General Act of 1978, as amended.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                             Page 25
APPENDIX II: COMMENTS FROM ISAF JOINT COMMAND




SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 26
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 27
See SIGAR
comment 1.




See SIGAR
comment 2.




    SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 28
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 29
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 30
The following are SIGAR’s comments on IJC’s letter dated June 15, 2010:

   1. We removed this recommendation from our final report, as the actions IJC described in its
      response fulfilled the spirit of our recommendation.

   2. We removed this recommendation from our final report, as IJC’s description of its intentions
      fulfilled the spirit of our recommendation.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                           Page 31
   APPENDIX III: COMMENTS FROM NATO TRAINING MISSION-AFGHANISTAN/COMBINED
   SECURITY TRANSITION COMMAND-AFGHANISTAN




See SIGAR
comment 1.




See SIGAR
comment 2.




See SIGAR
comment 3.




   SIGAR Audit-10-11 Security/ANSF Capability Ratings                   Page 32
See SIGAR
comment 3.




   SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 33
See SIGAR
comment 4.




    SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 34
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 35
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 36
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 37
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 38
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 39
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 40
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 41
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 42
The following are SIGAR’s comments on NTM-A/CSTC-A’s letter dated June 10, 2010:

   1. NTM-A/CSTC-A said our report relied on information that was out of date. Our audit work was
      conducted from October 2009 through May 2010 and relied on interviews and information
      collected over that entire period, including field observations of 18 ANSF units made during
      February and March 2010 and detailed reviews of ANSF assessment documents dated through
      March 29, 2010.

   2. NTM-A/CSTC-A acknowledges it faced numerous problems in training ANSF units as recently as
      six months ago. However, NTM-A/CSTC-A said it has made much progress since May 2010,
      when our audit ended and believes our report does not reflect that progress. NTM-A/CSTC-A
      provided its May 29, 2010 report entitled NTM-A 180 Day Internal Assessment and Way
      Forward, as part of its official comments, indicating that its report provides more current
      information than the observations and information we developed during our work. Our audit
      work was conducted from October 2009 through May 2010, and our draft report was circulated
      for agency comment on May 27, 2010, two days prior to the issuance of the NTM-A/CSTC-A
      report. NTM-A/CSTC-A’s report recounts challenges faced in training and fielding ANSF forces,
      accomplishments achieved during NTM-A/CSTC-A’s first six months, and potential concerns for
      future operations; the report does not address ANSF capability assessments. We have included
      NTM-A/CSTC-A’s report on pages 37 through 41.

   3. In its comments, NTM-A/CSTC-A observes that it, along with DOD and IJC, had harbored
      concerns regarding the efficacy of the CM rating system since the fall of 2009. As such, NTM-
      A/CSTC-A cited an October 2009 DOD report to Congress entitled Report on Progress toward
      Security and Stability in Afghanistan. That report, which expressed concern about the CM rating
      system was dated October 2009, but was not issued until the first week of April 2010, just weeks
      after we shared our preliminary observations regarding the CM assessment at an out-brief for
      the Commanders of ISAF, NTM-A/CSTC-A, and IJC. The DOD report passage quoted by NTM-
      A/CSTC-A contains an inaccurate characterization of the CM rating system, stating “CM ratings
      simply depict the manning, training, and equipment of a unit.” In fact, as our audit report
      describes, CM rating assessments evaluated a variety of other factors, such as facilities,
      sustainment, and command and control. NTM-A/CSTC-A also said that it and IJC began
      reforming the CM system in the fall of 2009. While we appreciate that concerns existed
      regarding shortcomings of the CM system during that timeframe, IJC and NTM-A were only
      established in October and November 2009, and were not fully operational until November
      2009 and February 2010 respectively, according to DOD’s April 28, 2010 report to Congress.

   4. In our report, we discussed construction delays and resulting conditions at the Kunduz Garrison,
      but not cost issues. NTM-A/CSTC-A’s comments appear to address a prior SIGAR report, ANA
      Garrison at Kunduz Does Not Meet All Quality and Oversight Requirements; Serious Soil Issues
      Need to Be Addressed, 10-09, April 20, 2010.




SIGAR Audit-10-11 Security/ANSF Capability Ratings                                            Page 43
APPENDIX IV: COMMENTS FROM THE OFFICE OF THE SECRETARY OF DEFENSE (POLICY)




SIGAR Audit-10-11 Security/ANSF Capability Ratings                       Page 44
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 45
APPENDIX V: COMMENTS FROM THE OFFICE OF THE SECRETARY OF DEFENSE (PERSONNEL
AND READINESS)




SIGAR Audit-10-11 Security/ANSF Capability Ratings                     Page 46
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 47
SIGAR Audit-10-11 Security/ANSF Capability Ratings   Page 48
                  (This report was conducted under the audit project code SIGAR-012A.)



SIGAR Audit-10-11 Security/ANSF Capability Ratings                                       Page 49
_________________________________________________________________________________
SIGAR’s Mission               The mission of the Special Inspector General for Afghanistan
                              Reconstruction is to enhance oversight of programs for the
                              reconstruction of Afghanistan by conducting independent and
                              objective audits, inspections, and investigations on the use of
                              taxpayer dollars and related funds. SIGAR works to provide
                              accurate and balanced information, evaluations, analysis, and
                              recommendations to help the U.S. Congress, U.S. agencies, and
                              other decision-makers to make informed oversight, policy, and
                              funding decisions to:

                                  •   improve effectiveness of the overall reconstruction strategy
                                      and its component programs;
                                  •   improve management and accountability over funds
                                      administered by U.S. and Afghan agencies and their
                                      contractors;
                                  •   improve contracting and contract management processes;
                                  •   prevent fraud, waste, and abuse; and
                                  •   advance U.S. interests in reconstructing Afghanistan.


Obtaining Copies of SIGAR         To obtain copies of SIGAR documents at no cost, go to
Reports and Testimonies           SIGAR’s Web site (www.sigar.mil). SIGAR posts all released
                                  reports, testimonies, and correspondence on its Web site.


To Report Fraud, Waste, and       To help prevent fraud, waste, and abuse by reporting
Abuse in Afghanistan              allegations of fraud, waste, abuse, mismanagement, and
Reconstruction Programs           reprisal contact SIGAR’s hotline:

                                      •   Web: www.sigar.mil/fraud
                                      •   Email: hotline@sigar.mil
                                      •   Phone Afghanistan: +93 (0) 700-10-7300
                                      •   Phone DSN Afghanistan 318-237-2575
                                      •   Phone International: +1-866-329-8893
                                      •   Phone DSN International: 312-664-0378
                                      •   U.S. fax: +1-703-604-0983



Public Affairs                    Public Affairs Officer
                                     • Phone: 703-602-8742
                                     • Email: PublicAffairs@sigar.mil
                                     • Mail: SIGAR Public Affairs
                                         400 Army Navy Drive
                                         Arlington, VA 22202
